U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Roshawn Deon Joiner v. United States of America,
S.Ct. No. 20-7678

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 6,
2021, and placed on the docket on April 8, 2021. The government’s response is due on May 10,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 9, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7678
JOINER, ROSHAWN DEON
USA

BRADFORD WAYNE BOGAN
FEDERAL PUBLIC DEFENDER FOR THE
WESTERN DISTRICT O
727 E. CESAR E. CHAVEZ BLVD.
B-207
SAN ANTONIO, TX 78206
210-472-6700
BRAD_BOGAN@FD.ORG

